WAIVER

Supreme Court of the United States

No. 20-5497
Marcus Simpson ve Hamilton County Common Pleas Court,
etal.
(Petitioner) (Respondents)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.

O There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

mi am a member of the Bar of

O Iam not presently afhémb¢
the response will be-filé

 

 

    
   

fe Supreme Court of the United States.

of the Bar of this Court. Should a response be requested,

Signature

Date: G- 1c sy

(Type or print) Name Scott Hee NAN
Xr. OMs. 0 Mrs. D Miss

Firm Loves Coonan Prostcona'’s OL Piece
Address 230 Case Gh S S oie YOos
City & State Copeman t Ohis vip USZOV
Phone > 13- Gh Z22°7
SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF

PRO SE, PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

ce Marcos Supe, fre &, ~73) Vitls Gr. , Cisco, OFS 215

 

 

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http//www.supremecourtus.gov. Have the Supreme Court docket number available.

 
